WALTER HAVERFIELDLLP
Attorneys At Law

Ghristina Henagen Peer

I

cpeer@walterhav.com

DIRECT L|NE 216.928.2918 | DTRECT FAX 216.916.2364
1301 E. Ninth St. I Suite 3500 | Cleveland, OH 44114

LEADING EXPERTISE. EXCEPTIONAL VALUE:

August 27,2020

Honorable Scott S. Harris, Clerk of the Court
SupReup Counr oF THE UNnrp Srerps
One First Street NE
Washington, D.C. 20543-000 1

RE

Okwadili Francis Chukwuani v. Solon City School District,
United States Supreme Court, Case No. 20-187

Dear Mr. Harris:

The undersigned represents Respondent, Solon City School District Board of Education
("Board" or "Respondent"), with regard to the above-referenced matter. Mr. Chukwuani's
Petition fo, o Writ of Certiorari ("Petition") was filed on August 9, 2020, and placed on the
docket on August 19, 2020. Accordingly, the Board's brief in opposition is due on or before
September 18,2020.
Pursuant to Sup. Ct. R. 30.4, Respondent requests an extension of thirty (30) days for the
Board to file its brief in opposition. This request reflects the additional time needed to prepare
the Board's submission and comply with the document preparation requirements and guidelines
promulgated by the United States Supreme Court.

Thirty days from September

falls on October 18,2020, a Sunday. Accordingly,
of time until October 19, 2020 to file the Board's
brief in opposition to the Petition. Thank you for your time and consideration.
18th

Respondent respectfully requests an extension

Very truly yours,
/s/ Christina Henasen Peer
Couns el of Record for Re spondent
cc

1032s83'14

Kathryn I. Perrico, Esq.
Sara Ravas Cooper, Esq.
Maria M. Pearlmutter, Esq.
Mr. Fred Bolden, Superintendent
Ms. Tebra Page, Director of Pupil Services

-3\

cLEVELANo

I cor-uvBUS I walterhav.com

CERTIFICATE OF SERVICE
Pursuant to Sup. Ct. R. 29.3 and Supt. Ct. R. 29.5(b), I hereby certiff that on this 27th
day of August,2020, a copy of the foregoing correspondence was sent electronically and by way
of United States Postal Service, first-class postage prepaid, to the following address:

Okwudili Francis Chukwuani, MD
okwy60@vahoo.com
7309 Winchester Drive
Solon, OH 44139

Petitioner, Pro Se

/s/ Christina H
Counsel of Record for Respondent,
Solon School District Board of Education

{032s8374 -3\

